NO.
_____________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ORISTEL SOTO-PEGUERO,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101
(207) 871-0310
Attorney for Petitioner

December 22, 2020

TABLE OF CONTENTS
QUESTIONS PRESENTED…………………………………………………….…….3
TABLE OF AUTHORITIES….……………………………………………………….4
OPINION BELOW…………………………….….………………….………….…….5
JURISDICTION…...…………………………………………………………………..6
STATEMENT OF THE FACTS…………………………………..…………………..8
REASON FOR GRANTING THE WRIT……..……………………………………..28
CONCLUSION……………………………………………………………………….48
APPENDIX…………………………………………………………………………...49
(Judgment of the First Circuit Court of Appeals, No. 18-1897, October 19, 2020).

2

QUESTION PRESENTED FOR REVIEW
Whether the court erred when it denied Petitioner’s motion to suppress
evidence discovered during an illegal search of Petitioner’s residence on the
basis that the evidence was independently discovered, the following day,
during a search pursuant to a valid warrant. This decision was erroneous
because the illegally obtained evidence, a firearm and two kilos of heroin,
was included in the detective’s affidavit in support of the warrant and
presented to the Magistrate and affected her decision to issue the warrant.
Moreover, the failure to suppress the evidence sullies the prophylaxis of the
Fourth Amendment because the officers illegally searched Petitioner’s
residence and then falsely testified about the search at the suppression
hearing and at trial.
Whether the district court erred when it enhanced Petitioner’s sentence
under USSG §3B1.1(c) for a leadership role in the conspiracy to distribute
heroin based on the single phrase “I am sending my wife” in reference to a
delivery of heroin to a coconspirator. This single phrase does not meet the
government’s burden of proving by a preponderance of the evidence that
Petitioner “exercised control over, organized, or was otherwise responsible
for superintending the activities of” his common law wife.

3

TABLE OF AUTHORITIES
CASES

PAGES

Brown v. Illinois, 422 U.S. 590 (1975)…………………………………………...38
Mapp v. Ohio, 367 U.S. 643(1961)……………………………………………….34
Molina-Martinez v. United States, 136 S. Ct 1338 (2016)…………………30,46,51
Murray v. United States, 497 U.S. 533 (1988)…………………...28,33,35,36,39,40
Segura v. United States, 468 U.S. 796 (1984)……………..28,33,34,35,37,39,40,41
United States v. Al-Rikabi, 606 F3d. 11 (1st Cir. 2010)………………..30,44,45,49
United States v. Cordero-Rosario, 786 F.3d 64 (1st Cir. 2015)…………………..38
United States v. Cruz, 120 F.3d 1 (1st Cir. 1997)…………………...29,30,45,47,48
United States v. Delgado-Perez, 867 F.3d 244 (1st Cir. 2017)…………………...32
United States v. Dent, 867 F.3d 37 (1st Cir. 2017)……………………..28,33,35,43
United States v. Feliz, 182 F.3d 82 (1st Cir. 1999)………………………...28,33,37
United States v. Hudson, 823 F.3d 11 (1st Cir.2016)……………………………..50
United States v. Jadlowe, 628 F.3d 1 (1st Cir. 2010)…………………………..37,38
United States v. Jones, 523 F.3d 31 (1st Cir. 2008)………………………………46
United States v. Madrid, 152 F.3d 1034 (8th Cir. 1998)………………..39,41,42,43
United States v. Ofray-Campos, 534 F.3d 1 (1st Cir. 2008)……………………...47
United States v. Picanso, 333 F.3d 21 (1st Cir. 2003)……………………...30,45,48
United States v. Ramos-Paulino, 488 F.3d 459 (1st Cir. 2007)…………………..47

4

United States v. Siciliano, 578 F.3d 61 (1st Cir.2009)……………………………35
United States v. Silvestri, 787 F.2d 736 (1st Cir.1986)……………………………40
United States v. Winston, 444 F.3d 115 (1st Cir. 2006)…………………………..32
United States v. Zapata, 18 F.3d 971 (1st Cir. 1994)………………………29,34,40
United States v. Zayas-Diaz, 95 F.3d 105 (1st Cir.1995)…………………………36
Wong Sun v. United States, 371 U.S. 471 (1963)………………………………...34
Statutes, Guidelines, Rules
USSG §3B1.1(c)……..…………..…………………………………………...passim

5

NO.
_____________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ORISTEL SOTO-PEGUERO,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_____________________________________________________
The Petitioner, Oristel Soto-Peguero, respectfully prays that a writ of certiorari
issue to review the judgment of the United States Court of Appeals for the First
Circuit entered on October 19, 2020.
OPINION BELOW
On October 19, 2020, the Court of Appeals entered its Opinion affirming the
Petitioner’s conviction and sentence. Judgment is attached at Appendix 1.

6

JURISDICTION
On October 19,2020, the United States Court of Appeals for the First Circuit
entered its Opinion affirming Petitioner’s conviction and sentence. Jurisdiction of this
Court is invoked under 28 U.S.C. § 1254 (1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitutional Amendment V:
No person shall…be deprived of life, liberty, or property without due process of
law…

7

STATEMENT OF THE FACTS
This is a Petition for Certiorari following a appeal from a conviction after
trial and sentence to one count of Possession with Intent to Distribute 100 grams or
more of heroin, in violation of 21 U.S.C § 841 (a)(1), one count of Possession with
Intent to Distribute a kilogram or more of heroin, in violation of 21 U.S.C. § 841
(a)(1), and one count of Conspiracy to Distribute and Possess with Intent to
Distribute one kilogram or more of heroin, in violation of 21 U.S.C. 846, and one
count of Use of a Firearm during and in relation to a drug offense, in violation of
18 U.S.C. § 924 (c). Petitioner was charged in an eight-count superseding
indictment returned on March 23, 2016. (D.E. at 9 No. 82).
On April 2, 2016, Petitioner was convicted after trial to counts two, three,
five and eight of the indictment. (D.E. at 17, No. 217). Petitioner was found not
guilty of count 6, Conspiracy to Distribute and Possess with intent to distribute one
kilogram or more of heroin with Luis F. Guzman-Ortiz, in violation of 21 U.S.C.
§846. Count 7, Illegal Possession of a Firearm, in violation of 18 U.S.C. 922 (g)(1)
was dismissed prior to trial. (D.E.at 12, No 132).
Introduction
In mid-January of 2015, the Drug Enforcement Administration (DEA) began
a wiretap investigation of a suspected heroin trafficking organization operated by
Eddyberto Mejia-Ramos. Intercepted communications between Mejia-Ramos and

8

Petitioner led the government to suspect Petitioner and his girlfriend, Mercedes
Cabral were selling heroin to Mejia-Ramos.
On July 6, 2015, an intercepted a call led DEA agents to believe that
Petitioner, and his common law wife, Cabral, were delivering heroin to MejiaRamos. Agents stopped Ms. Cabral and searched the car she was driving and
discovered a kilogram of heroin. Minutes after the stop, police officers surrounded
Petitioner’s home and without a warrant, forcibly entered the home. They
searched the home and discovered one kilogram of heroin and a small handgun.
The next day, after the entry and search of the home agents applied for and were
granted a warrant to search the residence.
Petitioner was arrested the same day and was indicted on July 9, 2015. A
superseding indictment was returned on March 23, 2016. (D.E. at 4. 9, Nos. 6, 82).
The Suppression Motion
On December 12, 2016, Petitioner filed a Motion to Suppress and a
Memorandum of Law in Support of the Motion to Suppress. Petitioner moved to
suppress all wiretap communications intercepted on target telephone 2 and 4, all
evidence seized from the stop of the car driven by Ms. Cabral and the searches of
the apartment located at 632 Norwest Lane, Norwood, Massachusetts.
(Defendant’s Motion to Suppress and Memorandum of Law in Support, 12/12/16,
[hereinafter “Defendant’s Memorandum at __”], D.E. at 11, Nos. 118, 119). The

9

Petitioner argued, inter alia, that no exigent circumstances justified the police’s
entry into Petitioner’s home. Petitioner argued that delaying the entry and search of
the home to obtain a warrant would not have posed “a great likelihood that
evidence would be destroyed.” (Defendant’s Memorandum at 12). Petitioner also
argued that even if the police were justified in entering Petitioner’s home to secure
it, “the officer’s subsequent decision to search under the auspices of conducting a
“protective sweep “is unsustainable.” (Defendant’s Memorandum at 13).
Petitioner argued that the second search pursuant to a warrant was tainted by the
illegality of the first search. (Defendant’s Memorandum at 16).
The government filed a Response to the Motion on December 22, 2016. The
government requested the district court deny the motion without a hearing.
(Government’s Response to Defendant’s Motion to Suppress, 12/22/19,
[hereinafter “Government’s Response at __”], D.E. at 12, No 123). The
government argued exigent circumstances existed to enter and secure Petitioner’s
home because it was necessary to secure the residence to prevent the destruction or
removal of evidence. (Government’s Response at 25). The government argued the
protective sweep was justified because a shot was fired through the door while
agents attempted to break down the door and that the agents’ actions, in searching
the residence, did not exceed the proper scope of a protective sweep.
(Government’s Response at 28-29). And in any event, the evidence uncovered

10

during the sweep would have been inevitably discovered pursuant to the warrant.
(Government’s Response at 30). The government argued that “if the discovery of
the heroin and firearm is excised from the affidavit in support of the search
warrant, there is still overwhelming probable cause to justify the issuance of the
warrant” (Government’s Response at 30-31).
Petitioner filed a reply to the government’s response with a supporting
affidavit from Petitioner. (Reply in Support of Defendant’s Motion to Suppress,
1/17/17, [hereinafter “Reply at __”] D.E. at 12, No. 126) The Reply alleged facts
significantly different from the facts alleged in the government’s motion and from
the grand jury testimony of Detective Kevin Mahoney and Agent Angelo Meletis,
which the government attached to its response. (Reply at 7-11, Government’s
Response, Exhibit 1 and 2, D.E. at 12, Nos 123-1 and 123-2). Petitioner requested
a hearing on the suppression motion. (Reply at 1). The government filed a
Response to Defendant’s Reply. (Government’s Motion For Leave to File a
Response to Defendant’s Reply, and Response to Motion, 1/19/17, [hereinafter
“Response to Reply, at __”), D.E. at 12, No 129).
Suppression Hearing
On January 19, 2017, the district court held a hearing on Petitioner’s Motion
to Suppress. (D.E. at 12, No. 130, 131). The parties jointly agreed that issue of
suppression of the wiretap communications could be decided based on the

11

affidavits that were submitted in support of the application to intercept wire
communications and there would be no testimony on that issue. (Hearing on
Motion to Suppress, Day One, 2/6/17, at 7-8, D.E. 12, No. 135, [hereinafter “S.H.
Day One at __”]).
In the early part of 2015, the Drug Enforcement Agency (DEA) began an
investigation of Eddyberto Mejia-Ramos, a resident of Tauton Massachusetts. The
DEA obtained wiretaps of Mr. Mejia-Ramos telephones because they suspected he
was distributing heroin. (S.H. Day One at 13). In April of 2015, the DEA
identified Petitioner and his girlfriend Mercedes Cabral as a new source supplying
heroin to Mr. Mejia-Ramos. (S.H. Day One at 15,16,). Petitioner and Ms. Cabral
lived at 632 Northwest Drive in Norwood Massachusetts. (S.H. Day One at 17).
The DEA continued to monitor Mejias-Ramos’ phone. On July 6, 2015
agents intercepted several phone conversations between Mejias-Ramos and
Petitioner. (S.H. Day One at 17). Agents believed that Ms. Cabral would be
delivering heroin to Mejias-Ramos that day. The first conversation alerting agents
to a potential delivery was intercepted at 1:43 pm. (S.H. Day One at 29, Exhibit
2,). In the mid to late afternoon, approximately 10-15 law enforcement officers
were placed outside the front and back of Petitioner’s residence and charge with
surveilling the residence. (S.H. Day One at 66, 67,78, S.H. Day Two at 20). At
approximately 9:30 pm following a phone call from Petitioner to Mejias-Ramos,

12

informing Mejias that Ms. Cabral was on her way to Tauton, the officers observed
Ms. Cabral leave the Northwest Drive residence.
Agents followed the car Ms. Cabral was driving and instructed
Massachusetts State Police to stop the car. (S.H. Day One at 20, 22). The police
stopped and searched the car. On the front seat of the car they found Ms. Cabral’s
pocketbook. They opened the pocketbook and found 1 kilogram of heroin. (S.H.
Day One at 25, 31, 37, 56).
Immediately upon the seizure of the heroin, the agent in charge, Special
Agent Carl Rideout, instructed the agents “to secure 632 Northwest Drive”. Agent
Rideout testified that “to secure” meant to “freeze the scene so I could go and
apply for a search warrant for the location.” (S.H. Day One at 25, 28, 40, S.H. Day
Two at 19).
Agents and officers at the residence approached the residence within
minutes of the car stop. The officers approached the house and knocked on the
door, calling out “police”. They knocked three to four times, twice (S.H. Day One
at 83, 84, S.H. Day Two at 24). They did not hear anything from inside the
apartment as they knocked. (S.H. Day One at 69, 84, 85, S.H. Day Two at 23).
Within two minutes the officers began to ram the door with a pole-shaped device
(S.H. Day One at 70). They rammed the door five to six times when a shot came
through the front door. None of the officers were injured. (S.H. Day One at 71,

13

S.H. Day Two at 25). The officers continued to ram the door but were unsuccessful
in breaking the door open. Officers stationed at the back of the house then entered
the house by breaking the glass sliding doors at the rear of the house. (S.H. Day
One at 71, S.H. Day two at 27). The officers from the rear of the house let the
officers at the front into the residence, both teams of officers searched the first
floor for any people, but no one was present on the first floor. The officers called
upstairs and ordered anyone upstairs to crawl down the stairs. Petitioner and
Guzman-Ortiz crawled down the stairs backwards. (S.H. Day One at 72, 88, S.H.
Day Two at 28). Petitioner and Guzman-Ortiz were then arrested. (S.H. Day One at
72).
Special agent Angelo Meletis and Detective Kevin Mahoney then went
upstairs. They entered the front bedroom. It was sparsely furnished with only an air
mattress. (S.H. Day One at 73). The officers searched the area, making sure that no
one was in the closet or around the bed. Detective Mahoney testified that “I saw a
block of an unknown object that I believe was wrapped like I have seen kilo
packages before, half kilo packages sticking out of the floor vents below the
window”. (S.H. Day One at 74, 91). “It was right in the floor beneath that window.
It’s an air conditioning and heating vent on the floor, and the grate was not on, and
sticking out of that vent was that taped wrapped object.”. (S.H. Day One at 74,
77,). Agent Meletis also testified that a rectangular package was protruding out of

14

the air vent. And that the air vent had no cover on it. (S.H. Day Two at 30, 31,)
When the court queried if the block was “above the level of the floor, the witness
said it was. (S.H. Day One at 74). The detective testified that he pulled the
wrapped object out of the vent and discovered a firearm beneath it. (S.H. Day One
at 75, S.H. Day Two at 33). The Detective stated that the vent was a hole that went
all the way down to the first floor. (S.H. Day One at 76, 93). Detective Mahoney
testified he looked inside the vent for his own protection (S.H. Day One at 75, 93,
94). He denied that he was “searching” the vent for the gun. (S.H. Day One at 94,
95). The detective admitted sticking the drugs and gun in an open vent with the
drugs sticking out “was not a very good hiding place” (S.H. Day One at 95).
The second officer, Agent Angelo Meletis, searched the second bedroom on
that floor. The agent described a fully furnished bedroom. (S.H. Day Two at 31).
The agent testified that between the bed and the nightstand there was a black
plastic bag which was “partially closed”. The agent opened that bag “to determine
that there wasn’t any other weapon in the house” and discovered heroin in the bag.
(S.H. Day Two at 32).
Petitioner testified at the hearing. Petitioner testified that the police did not
announce themselves as they testified. Rather they immediately began breaking
the door down. Petitioner said he thought he was being robbed by other drug
dealers and he fired one shot through the front door. (S.H. Day Two at 58-60,). In

15

direct opposition to the testimony of Detective Mahoney and Agent Meletis,
Petitioner said he ran upstairs with Mr. Guzman-Ortiz and hid the heroin in the
heating vent in the front bedroom.1 (SH Day Two at 60-61). He stated that he put a
t-shirt in the vent then the gun and then the drugs. Then he placed the cover back
on the vent. (S.H. Day Two at 61,63, 65). Petitioner said he had previously
practiced hiding the drugs and gun in the vent because he thought it was a good
hiding place. He stated he practiced with putting the t-shirt in first because
otherwise the items would drop all the way down to the first floor. (S.H. Day Two
at 63, 64. 67). After the cover was in place the drugs and gun were not visible
(S.H. Day Two at 66). Petitioner said the vent cover had tabs on either end that
clicked into place when the vent cover was removed or replaced. (S.H. Day Two at
67). Petitioner and Guzman-Ortiz hid in a closet but when the officers told them to
come downstairs, they complied. The officers then went upstairs and Petitioner
who was handcuffed remained in the living room. Petitioner heard furniture
breaking upstairs. (S.H. Day Two at 71, 72). The officers called downstairs
“Bingo under the kilo we found a gun”. (S.H. Day Two at 71). Petitioner testified
that his bed his bed was intact before the officers went upstairs, not broken apart as
it appeared in the pictures of the room taken the next day. (S.H. Day Two at 68,
70). Petitioner stated the drugs found in his bedroom were not located between the

1

Defendant testified he only realized he wasn’t being robbed when he saw
16

bed and the nightstand but were a plastic bag in the bottom drawer of the
nightstand together with some money. (S.H. Day Two at 68-69, 72).
After Petitioner and Mr. Guzman-Ortiz were arrested and taken from the
house the officers locked the house and stationed themselves outside overnight to
ensure that no one entered the house. (S.H. Day Two at 34).
The Search Warrant
The next morning, Agent Rideout applied for a warrant to search the house
at 632 Norwest Lane. (S.H. Day One at 42). In his affidavit in support of the search
warrant for 632 Northwest Drive, Agent Rideout stated probable cause existed to
believe that heroin and evidence of heroin distribution was stored in the house.
(Government Exhibit 3, Affidavit of Carl Rideout, July 7, 2015, at 3, [hereinafter
“Affidavit at __”}). Agent Rideout stated that Petitioner and Ms. Cabral resided at
632 Norwest lane. In the course of a wiretap investigation, Ms. Cabral was
observed delivering heroine to Mejia-Ramos. (Affidavit at 3). Agent Rideout
stated that Petitioner took a trip to New York City, which the agent believed was
for the purpose of drug trafficking activity, although no drug trafficking was
observed. (Affidavit at 4). Rideout detailed several telephone calls between
Mejia-Ramos and Petitioner that he “believed concerned requests for a large
quantity of heroin.” (Affidavit at 5). And that after such calls Ms. Cabral or

the officers at the glass sliding back door (S.H. Day Two at 59-60).
17

Petitioner was observed driving to Mejia-Ramos house or his mother’s house.
(Affidavit at 6-8). In his affidavit Rideout stated that on July 2, 2015, Petitioner
called Mejia-Ramos and told him he had “pesos of some shit left” and seemed ask
Mejia-Ramos if he wanted to buy it. Although nothing in this conversation refers
to additional heroin at Petitioner’s residence, Agent Rideout opines in the affidavit
that this conversation concerned Petitioner supplying heroin to Mejias-Ramos and
“I further believe that [Petitioner] is indicating that he has additional heroin in his
possession, most likely at his residence, which is the premises.” (Affidavit at 8-9).
In the affidavit Rideout details the conversations to set up the delivery on
July 6, 2015 which ultimately resulted in the police stopping Ms. Cabral’s car and
recovering a kilogram of heroin. (Affidavit at 9-10). Rideout details the law
enforcement’s subsequent entrance into the residence and then states “During the
security sweep, officers observed in plain view two large brick shaped objects
believed to be kilograms of heroin, one in each bedroom. An officer moved one of
the bricks and observed a firearm beneath it.” (Affidavit at 11) (emphasis added).
Post Hearing Pleadings
Both the government and Petitioner filed post hearing briefs. (D.E. at 13,
No. 141, 142). The government acknowledged the discrepancies in the testimony
of the Agent Meletis and Detective Mahoney and that of Petitioner concerning
whether or not the two kilograms of heroin were “in plain view” and whether or

18

not the officers announced their presence (Government’s Post-Hearing Brief in
Response to Defendant’s Motion to Suppress at 33, [hereinafter Govt’s Post
Hearing Response at __”]). However, the government argued there was “no reason
to discredit the testimony of Detective Mahoney and SA Meletis” because their
testimony was “consistent, reasonable, and consistent with standard police
practice” and because “Mahoney admitted he moved the heroin to discover the
firearm and Meletis admitted he moved the bag to discover the heroin in the back
bedroom.” (Govt’s Post Hearing Response at 35). The government acknowledged
that the discovery of the firearm and the heroin was made part of the affidavit in
support of the search warrant but stated that if the evidence was excised from the
affidavit there was still probable cause to justify issuance of the warrant. (Govt’s
Post Hearing Response at 35-36).
Petitioner underlined the discrepancy between the officer’s testimony and
Petitioner’s testimony. Petitioner argued that the officer’s testimony standing
alone shows that they were searching for evidence and not conducting a protective
sweep when they found the drugs and firearm. (Post-Hearing Brief in Support of
Defendant’s Motion to Suppress at 13, [hereinafter Defendant’s Post-Hearing Brief
at__]). Agent Meletis testified he moved the heroin to reveal the gun and
Detective Mahoney testified he opened the bag to discover the heroin. Id.
Petitioner however, also argued that the officers were untruthful when they

19

testified the heroin was visibly protruding from the vent or that the bag in the
second bedroom was partially open on the floor. Petitioner argued it was not
believable that the Petitioner, who had practiced placing the drugs in the hiding
place, even to the point of placing a t-shirt in the vent to prevent the drugs from
falling through to the first floor, would have left the drugs protruding from the
uncovered vent. Petitioner argued that the detectives testified the vent cover was
missing, but in fact the vent cover was photographed in the bedroom, lying on the
floor. Petitioner also argued that there was plenty of time between running upstairs
and surrendering to completely hide the drugs. (Defendant’s Post-Hearing brief at
14-15). Moreover, the next day when the officers “meticulously photographed the
scene to document the “way things were” they took no photos of how the vent
appeared when the drugs were supposedly protruding from it or when the gun was
tucked away inside.” (Defendant’s Post-Hearing Brief at 15). Petitioner argued
that applying the inevitable discovery rule to the officer’s misconduct would sully
the prophylaxis of the Fourth Amendment. (Defendant’s Post-Hearing Brief at 18).
The Court’s Decision
The court held that exigent circumstances justified the warrantless entrance
into 632 Norwest Lane. (Memorandum and Order, 5/9/17, at 14, D. E. at 14, No.
159, [hereinafter “Order at __”], Addendum at 14). The court found that Cabral’s
arrest and her subsequent failure to return to 632 Norwest while being unreachable

20

gave rise to a reasonable belief that Petitioner would have disposed of the evidence
before police obtained a warrant. (Order at 16, Addendum at 16).
The court also held that it “was not persuaded by the officers’ account that a
block of heroin was sticking out of a floor vent in the front bedroom.” The court
also did not credit the officer’s testimony that the bag in the back bedroom
containing heroin was lying on the floor and not in the drawer of the nightstand. “I
do not resolve the conflicting evidence as to whether a bag in the back bedroom
containing heroin was in a drawer or next to the bed.” (Order at 19, Addendum at
19).
Rather, the court found that the government’s own version of events went
beyond the scope of a protective sweep, “manipulating an object in a vent and
opening a bag goes beyond the scope of a protective sweep.” (Order at 19,
Addendum at 19). Nonetheless the court did not suppress the evidence under the
theory that the evidence would have been inevitably discovered. Even though the
evidence unlawfully discovered in the apartment was used to obtain the search
warrant, the court found that “the officers had sufficient probable cause by the time
they began the protective sweep to obtain a warrant without the evidence they
found in the apartment.”. The court found that allowing the evidence to come in
did not sully the prophylaxis effect of the Fourth Amendment. (Order at 20,
Addendum at 20).

21

The Trial
On March 26, 2018 trial commenced. Trial took place over six days. Of the
approximately 600 pages of witness testimony, approximately 300 pages, half the
testimony presented, concerned the search, the seizure and the evidence recovered
from, 632 Norwest Lane. Approximately half of the prosecutor’s opening and
closing statements were also dedicated to 632 Norwest Lane seizure and search.
In late March of 2015, the government began intercepting phone calls
between Eddy Mejia-Ramos and Petitioner. (Transcript of Trial, Day 2, 3/27/18 at
60 [hereinafter “T. Day 2 at __”]). The telephone calls were in the Spanish
language and were simultaneously translated to English at the time the call was
intercepted. (T. Day 2 at 61). Twenty-nine intercepted calls were introduced into
evidence. (T. Day 2 at 71, Govt’s Ex 2). The government claimed that in each
telephone call Mejia-Ramos and Petitioner discussed the Petitioner delivering
heroin to Mejia-Ramos. (T. Day 2 at 74-111, Transcript of Trial, Day 3, 3/28/18 at
7-11[hereinafter “T. Day 3 at _”]). During the telephone calls Petitioner told
Mejia-Ramos several times that Ms. Cabral was on her way over to Mejia-Ramos
house. Petitioner referred to Ms. Cabral as “mujer” which is translated as wife or
women. (Suppression Hearing, Government’s Exhibit 2, Transcript of Wiretap
Calls on July 6, 2015,) (https://www.spanishdict.com/translate/mi%20mujer “mi
mujer is translated “my wife.”) In two of the four calls where Petitioner refers to

22

Ms. Cabral, he says “my wife is on her way” (Ex. 2.8, T. Day 2 at 82) and “the
wife is around there on her way” (Ex. 2.31, T. Day 3 at 11) and twice Petitioner
says “I am going to send my wife” (T. Day 2 at 79, Govt’s Ex. 2.5, T. Day 3 at 9,
Govt’s Ex. 2.30).
Following several of the intercepted calls agents who were conducting
surveillance on both Petitioner’s and Mejia-Ramos’ residence follow Petitioner and
or Cabral as they travel from Petitioner’s residence to Mejia-Ramos residence. (T.
Day 2 at 83, 92, 108, 111). Agents also attach a GPS to the Nissan Murano driven
by Petitioner and Cabral. (T. Day 2 at 87-88).
On July 6, 2018, at 1:43 pm, agents intercept a telephone call between
Petitioner and Mejia-Ramos in which Petitioner states he has a lot of “food”
around. (Govt’s Ex. 2.28, T. Day 3 at 8). The agents intercept two more telephone
calls that day, one at 8:57 pm and one at 9:38 pm. (T. Day 3 at 9-10, Govt’s Ex.
2.30 and 2.31). In the final one Petitioner referring to Cabral states “she is around
there on her way”, and the agents who were conducting surveillance of Petitioner’s
residence observed Ms. Cabral leave the residence, 632 Norwest Ave, Norwood in
a Hyundai Sonata and head southbound. (Transcript of Jury Trial Day 1, 3/26/18 at
40-41, [hereinafter “T. Day 1 at __”], T. Day 2 at 40, 50-52, T. Day 3 at 11).
Detective Christine Theodore of the Massachusetts State Police, who was
conducting surveillance of Petitioner’s residence spoke to two State Troopers and

23

asked them to stop the Hyundai. Troopers stopped the car as it entered on to Route
44 in Raynham (T. Day 1 at 44, T. Day 3 at 11-12). Troopers arrested Ms.Cabral
and searched her pocketbook. The pocketbook contained one kilogram of heroin,
packaged in 8-10 blocks wrapped in green cellophane. (T. Day 1 at 44, T. Day 2 at
14, Day 4 at 54-55). Agents then notified the officers remaining at 632 Norwest
Ave to seize the residence and arrest the occupants.
Both Agent Meletis and Detective Mahoney testified about the seizure of the
residence and arrest of Petitioner and Guzman-Ortiz in substantial conformity with
their testimony at the Suppression hearing. Both Mahoney and Meletis repeated
their testimony that the block of heroin was “sticking out of the vent”, protruding
above floor level. (T. Day 3 at 89-90, T. Day 4 at 89). However, Detective
Mahoney also added that he removed the block of drugs from the vent because he
was worried it would fall through the floor. (T. Day 3 at 90). Agent Meletis also
repeated his testimony that he looked inside a black bag that was lying open on the
floor. (T. Day 4 at 88).
The government introduced testimony that Petitioner tested positive for
gunshot residue on his hands. Guzman-Ortiz tested negative for gunshot residue
(T. Day 4 at 183, T. Day 5 at 62-67). The blocks of drugs found at Petitioner’s
residence contained heroin. (T. Day 4 at 52-61).

24

The next day the government obtained a search warrant for 632 Norwest
Ave. The search of the residence pursuant to a warrant revealed drug
paraphernalia, money in a drawer of the nightstand, more heroin in a drawer of a
bureau, a bullet in a drawer of the bureau, and six cell phones (T. Day 2 at 26, 31,
32, T. Day 4 at 106).
Sentencing Hearing
The Presentence Investigation Report grouped counts 2, 3, and 5 for
guideline calculation purposes. Count 8 was calculated separately because the
statutorily mandated term of imprisonment was required to run consecutively.
(Presentence Investigation Report, 6/28/18, at 16, para.36, 37. [hereinafter PSI at
__]). Probation found Petitioner’s base offense level for the grouped counts to be
32, based on Petitioner’s accountability for 3.48 kilograms of heroin. Petitioner
received a two-point increase for role in the offense, because probation found “The
defendant directed his significant other at the time, Mercedes Cabral, to deliver
drugs for him on at least four separate occasions.” Petitioner’s total offense level
was 34. (PSI at 17, para. 43-51). Probation calculated the guideline sentence on
count 8 to be a ten-year consecutive term of imprisonment, because a firearm was
discharged. (PSI at 16, para. 37). Petitioner’s criminal convictions resulted in a
subtotal criminal history score of 6 and two points were added because Petitioner
committed the instant offense while under a criminal sentence for a total criminal

25

history score of 8, resulting in a criminal history category of IV. (PSI at 24, para.
62-64). A total offense level of 34 with a criminal history category of IV resulted
in a guideline range of 210 months to 262 months on the grouped counts and a
mandatory ten-year consecutive sentence imposed consecutively to the grouped
counts. (PSI at 35, para. 113,114).
Petitioner submitted a lengthy memorandum with an attached psychiatrist’s
report. (Sentencing Hearing, 9/12/19 at 3[hereinafter Sentencing at __]). Petitioner
objected to the two-point enhancement for Role in the Offense. (Defendant’s
Memorandum in Support of Sentencing Recommendation, 9/6/2018, at 2,
[hereinafter “Def. Sen. Memo. at __”], Sentencing at 5-6). The government
requested a sentence of 330 months, the minimum guideline sentence of 210
months together with the consecutive 120 months on count 8. Petitioner calculated
the total offense level at 32, resulting in a guideline sentencing range of 168-210
months. Petitioner requested the minimum mandatory sentence of 20 years.
Petitioner argued that more than most Petitioner suffered from a plethora of
disadvantages. Petitioner had serious mental health issues since childhood,
beginning at the age of four. Petitioner has polysubstance abuse disorder, limited
learning abilities and almost no family support. He was also a victim of repeated
child sexual abuse. (Sentencing at 14-15).
The court stated:

26

This is a very, sad case for anybody who had anything to do with it. It is
quite clear that Mr. Soto-Peguero suffers from major mental illness and has
since early childhood. He has had a difficult childhood. He was sexually
abused at some point. He is, and I now largely rely on the psychiatrist’s
report, limited academically. He suffers from polysubstance abuse disorder,
depression. And despite the family’s presence here today, I gather he’s had
very little family support through most of his life. (Sentencing at 20).
The court sentenced Petitioner to a total term of incarceration of 262 months, 120
months on counts 3,5, 60 months on count 2, to run concurrently and a consecutive
10 year sentence on count 8, to run consecutively to the sentence imposed on
counts 2,3, 5, with a five-year term of supervised release and a $400 special
assessment. (Sentencing at 20, Amended Judgment of Conviction, 10/12/18 at 2).
Appellate Decision
The First Circuit held that the district court did not err in denying
Defendant’s motion to suppress. The appeals court held that the officer’ illegal
search and lying on the stand about the search in the suppression hearing and trial
did not sully the prophylactic effect of the Fourth Amendment. (United States v.
Soto-Peguero, No. 18-1897, October 19, 2020)

27

REASON FOR GRANTING THE WRIT
Point I
The court erred when it denied Petitioner’s motion to suppress evidence
discovered during an illegal search of Petitioner’s residence on the basis
that the evidence was independently discovered, the following day,
during a search pursuant to a valid warrant. This decision was
erroneous because the illegally obtained evidence, a firearm and two
kilos of heroin, was included in the detective’s affidavit in support of the
warrant and presented to the Magistrate and affected her decision to
issue the warrant pursuant to which the residence was searched.
Moreover, the failure to suppress the evidence sullied the prophylaxis of
the Fourth Amendment because the officers illegally searched
Petitioner’s residence and falsely testified about the search at the
suppression hearing and the trial.
Argument
Evidence obtained as a direct result of an unconstitutional search or seizure
is plainly subject to exclusion. Segura v. United States, 468 U.S. 796, 804 (1984).
However, under the independent source exception to the Fourth Amendment
exclusionary rule “evidence acquired by an untainted search which is identical to
…evidence unlawfully acquired is admissible”. United States v. Dent, 867 F.3d
37, 40 (1st Cir. 2017), citing Murray v. United States, 497 U.S. 533.536-37 (1988)
(internal quotations omitted). A search pursuant to a warrant following an illegal
search can cure the illegal search if it is a genuinely independent source of the
evidence. Murray, 497 U.S. at 542. A search pursuant to a warrant is not
independent where the “information obtained during that entry was presented to
the Magistrate and affected [her] decision to issue the warrant”. Id., Segura, 468
28

U.S. at 814 (a warrant is not genuinely independent if information obtained
during the initial [illegal] entry or occupation of the [residence] was needed or used
by the agents to secure the warrant.”)(emphasis added). In the present case, the
information, obtained pursuant to the illegal search, that a firearm and two
kilograms of heroin could be found in the residence, was included in the affidavit
presented to the Magistrate and used to secure the warrant. That information that
necessarily “affected the Magistrates decision to issue the warrant. United States
v. Feliz, 182 F.3d 82, 86 (1st Cir. 1999) (a warrant application must demonstrate
probable cause to believe a crime has been committed and that enumerated
evidence of the crime will be found at the place to be searched). Moreover,
admitting the evidence sullies the prophylaxis of the Fourth Amendment. The
officers illegally searched the residence and then falsely testified about the search
at the suppression hearing and at trial. United States v. Zapata, 18 F.3d 971 (1 st
Cir. 1994) (application of the doctrine of independent source in a particular case
must not sully the prophylaxis of the Fourth Amendment.) Therefore, the district
court erred when it found that the warrant was an independent source for the
illegally obtained evidence.
The exclusionary rule bars the admission of evidence obtained from a
warrantless search. Mapp v. Ohio, 367 U.S. 643,648 (1961). However, the
exclusionary rule has no application [where] the Government learned of the

29

evidence from an independent source” Segura, 468 U.S. at 806, citing Wong Sun
v. United States, 371 U.S. 471, 487 (1963). Under the independent source doctrine,
where law enforcement, following an illegal search, subsequently obtains a valid
search warrant, evidence discovered during the subsequent search will not be
suppressed if the warrant “issued wholly on information know to the officers
before the entry into the apartment” and “no information obtained during the initial
illegal search was needed or used by the agents to secure the warrant” Segura, 468
U.S. at 798. (emphasis added). See also, Murray, 487 U.S. at 541. ( a subsequent
search pursuant to warrant is not an independent source if “the agents’ decision to
seek the warrant was prompted by what [agents] had seen during the initial entry
[or illegal search] or if information obtained during that entry [or illegal search]
was presented to the Magistrate and affected his decision to issue the warrant.”
The independent source2 exception derives from the “fruit of the poisonous
tree” doctrine excluding “not only primary evidence obtained as a direct result of
an illegal search or seizure, but also evidence later discovered and found to be
derivative of an illegality or “fruit of the poisonous tree” Segura, 468 U.S. at 805.
(internal citations omitted). A subsequently issued search warrant is an

2

In the present case the district court admitted the evidence under the inevitable
discovery doctrine, a “close relative” of the independent source exception. (Memorandum
and Order, 5/9/17 at 19, Addendum at 19), United States v. Dent, 867 F.3d 37, 41(1st Cir.
2017). Inevitable discovery doctrine applies to evidence that would have been (but was
not) inevitably discovered by lawful means, and independent source doctrine refers to
30

independent source only where “the lawful seizure is genuinely independent of the
earlier, tainted one” Murray 487 U.S. at 542. To be an independent source the valid
warrant search must be “means sufficiently distinguishable to purge the evidence
of any taint arising from the [illegal search]” Segura, 468 U.S. at 814.
In the present case, the subsequent search pursuant to the warrant cannot be
an independent source of the illegally obtained evidence. The information obtained
during the illegal search was “used by the agents to secure the warrant.” Id. at 798.
Moreover, the information was present to the Magistrate and affected her decision
to issue the warrant. Murray, 487 U.S. at 541. In the present case, the evidence
obtained through an unlawful search and present to the Magistrate was so
prejudicial as to make it unnecessary for the Magistrate to rely on and analyze the
other evidence in the affidavit. In this case, law enforcement was seeking a warrant
to search a residence. The warrant application had to demonstrate two elements, a
commission element, (it had to show a crime had been committed), and a nexus
element, (it had to show enumerated evidence of the offense would be found in the
residence). United States v. Zayas-Diaz, 95 F.3d 105,111 (1st Cir.1995). The nexus
element of the warrant application was met, in its entirety, by the two sentences in
the warrant application detailing the illegally obtained evidence. “officers observed
in plain view two large brick shaped objects believed to be kilograms of heroin,

evidence rediscovered by lawful means. United States v. Siciliano, 578 F.3d 61, 68, n.
31

one in each bedroom. An officer moved the brick and observed a firearm beneath
it”. (Affidavit of Carl Rideout at 11). Thus, there is no way this Court or the district
court could say that the illegal evidence “did not affect the Magistrate’s decision to
issue the warrant. Murray, 487 U.S. at 541. Nor is there any way to dissipate the
taint caused by inclusion of the illegally obtained evidence in the warrant
application. Segura, 468 U.S. at 814
It is true that the district court found that without the information “gleaned
from the unlawful search”, the search warrant affidavit contained information
sufficient to support probable cause to issue the warrant. (Order and Memorandum
at 20, Addendum at 20), United States v. Jadlowe, 628 F.3d 1, 9 (1 st Cir. 2010)
(where illegally obtained evidence is included in the warrant application, this Court
examines whether the search warrant affidavit contains sufficient information to
support probable cause without any information gleaned from the unlawful search).
That finding was clearly erroneous. The affidavit in support of the warrant
application did meet the commission element of the warrant requirement. The
information in the application was sufficient to show that a crime had been
committed. The affidavit detailed telephone calls to and from Petitioner and the
supplier and it detailed the heroin uncovered in the car stop of Cabral. (Affidavit of
Carl Rideout at 3-10). However, the warrant application did not meet the nexus

4 (1st Cir. 2009).
32

element. There was no information, aside from the illegally obtained evidence,
supporting a finding that enumerated evidence of contraband or of a crime would
be found in Petitioner’s residence. United States v. Feliz, 182 F.3d 82, 86 (1 st Cir.
1999). Agent Rideout did opine that he “believed that there is more heroin in
Petitioner’s residence”, but this was pure speculation, unsupported by any
reference in the intercepted telephone calls. (Affidavit of Carl Rideout at 8-9).
United States v. Cordero-Rosario, 786 F.3d 64, 71 (1st Cir. 2015) (“[A} simple
assertion of police suspicion is not itself a sufficient basis for a magistrate’s finding
of probable cause.”). In contrast, inclusion of the illegally obtained evidence (two
kilograms of heroin and a firearm found in the residence) in the warrant application
showed beyond any doubt that contraband and evidence of a crime was to be found
in the residence. Faced with the possibility of insufficient evidence on the nexus
requirement, the government had nothing to lose by inserting the reference to the
illegal obtained evidence in the warrant application. Jadlowe, 628 F.3d at 9. (the
test for determining whether the warrant is a genuinely independent source is to
simply excises the illegally obtained evidence from the application). Thus, the
government understood that there was no downside to including the illegally
obtained information in the application. Brown v. Illinois, 422 U.S. 590, 599-600
(The purpose of the exclusionary rule “is to deter—to compel respect for the

33

constitutional guaranty in the only effectively available way—by removing the
incentive to disregard it.”)
Moreover, assuming without conceding, that there was probable cause
without the illegally obtained information, to support the warrant, the closeness of
the question in the present case, makes it impossible to conclude, as the district
court did, that the Magistrate’s decision to issue the warrant was unaffected by the
illegal evidence. Although in many cases, the fact that there exists probable cause
to issue a search warrant will guarantee that the issuance of the warrant is
“sufficient to purge the earlier taint” of the illegal search or that the magistrate’s
decision was unaffected by the illegally obtained information, that is not the case
in the present instance. Segura, 468 U.S. at 814, Murray, 487 U.S. at 541. As the
Eighth Circuit stated in a similar case, “It is clear that a Franks analysis [excising
the illegally obtained or false information from the warrant application] is the
proper method for determining whether a warrant is supported by probable cause.
“While probable cause is necessary, we are uncertain whether it is sufficient or
possible to show that the decision to issue the warrant was unaffected by the
illegally obtained information as required by Murray”. United States v. Madrid,
152 F.3d 1034, 1040 (8th Cir. 1998). In the present case, it is impossible that the
Magistrate’s decision to issue the warrant was not affected by the inclusion of the
illegal evidence. The illegally obtained evidence was so compelling that it would

34

be impossible for the Magistrate to ignore it. It is important to note that both
Segura and Murray, never held that a search pursuant to a warrant can be a
genuinely independent source where the illegally obtained evidence is included in
the application. In both cases, the Magistrate issuing the warrant was not aware of
the illegally obtained evidence. Thus neither, Murry or Segura talk about excising
the illegally obtained evidence from the warrant. Instead these cases hold that a
later search pursuant to a warrant is not an independent source “if information
obtained during that entry was presented to the Magistrate and affected his
decision to issue the warrant.” Murray 487 U.S. 542. Because the illegally obtained
evidence included in the application, two kilograms of cocaine and a firearm, was
so conclusively prejudicial, and because the application included minimal
information in support of the nexus requirement, a finding that there existed
probable cause to support the warrant is not sufficient to insure that the later search
pursuant to a warrant was genuinely independent. Murray, 487 U.S. at 542,
Segura, 468 U.S. at 814.
Moreover, in the present case, concluding the search pursuant to the warrant
was an independent source for illegally obtained evidence sullies the prophylactic
effect of the Fourth Amendment. To apply either the independent source or
inevitable discovery or independent source exception the government must show
that the application of the exception would not “provide an incentive for police

35

misconduct or significantly weaken Fourth Amendment protection.” United States
v. Silvestri, 787 F.2d 736, 744 (1st Cir. 1986), United States v. Zapata, 18 F.3d 971,
(1st Cir. 1994) (Evidence which comes to light by unlawful means will nonetheless
be admitted at trial if it is revealed in an independent and lawful way, provided the
application of the doctrine in a particular case will not sully the prophylaxis of the
Fourth Amendment).
In the present case, the district court found the officers improperly pried off
the cover of a closed vent, searched the vent and opened a bag. (Order and
Memorandum at 19, Addendum at ) Petitioner testified the officers destroyed
furniture, including his bed, opened drawers and containers in draws, opened the
vent and removed items from all these places. (SH Day Two at 70-71). The search
in the present case is similar to the search in the Madrid case.3 In Madrid officers
“went upstairs or downstairs on two occasions, detained and searched the
occupants, seized wallets and placed them in envelopes marked ‘evidence’ and
leafed through personal mail and a notebook.” Madrid, 152 F.3d at 1036. The
information gleaned in this illegal search was included in the affidavit and used to
secure a warrant. The Madrid Court held that because the agents “exploited their
In the present case, law enforcement did not merely illegally “seize” the residence they
illegally “searched” the residence. “Different interests are implicated by a seizure than by
a search.” Segura, 468 U.S. at 806. “A seizure affects only a person’s possessory
interest; a search a person’s privacy interest. A seizure is generally less intrusive than a
search. Id. In most cases analyzing independent source the courts are dealing with cases
involving illegal entry into a residence and not an illegal search.
3

36

presence” in the residence to conduct an illegal search and because of the severity
of the police misconduct” the inevitable discovery exception should not apply. Id
at 1040.
In the present case, the police also “exploited their presence” in the
residence, having probable cause to enter the residence, the officers tore the
residence apart, destroying furniture, opening drawers, opening containers, and
prying the lid off air conditioning vent. The government then used this illegally
obtained evidence to secure the warrant. This sullied the prophylactic effect of the
Fourth Amendment. “Whatever balance is to be achieved by the inevitable
discovery doctrine; it cannot be that police officers may violate constitutional
rights the moment they have probable cause to obtain a search warrant.” Madrid,
152 F.3d at 1041.
More importantly, admitting this evidence under the independent source
doctrine makes the court complicit in the officers’ false testimony at the
suppression hearing. The court found “I am not persuaded by the officers’ account
that a block of heroin was sticking out of a floor vent in the front bedroom.”.
(Order and Memorandum at 19, Addendum at 19). Nor was the court persuaded by
the officers’ account that the bag containing heroin found in the back bedroom was
next to the bed, not in the drawer of the nightstand. (Order and Memorandum at
19, Addendum at 19). In this case, not only was the search illegal, the officers

37

compounded that illegality by lying on the stand about their actions. Id. In the
present case, the court’s finding that the later search pursuant to the warrant was an
independent source of the evidence means that the court is enabling the officer’s
untrue testimony at the suppression hearing concerning the illegal search.
Moreover, the ruling insured that the officers continued to offer false testimony at
trial, once again testifying that the heroin was “sticking out of the vent”, that the
bag was lying, partially open, on the floor next to the bed. (T. Day 3 at 89-90, T.
Day 4 at 88, 89).
This Court in United States v. Dent, declined to consider applying the
holding in Madrid to that case, because the search in Dent, unlike the present case,
was minimal (the officers lifted an air mattress) and because the information
obtained in that search was not included in the warrant application. 867 F.3d 37,
40-41 (1st Cir. 2017) (“Whether we would follow Madrid we need not decide
today.”). However, in the present case, the illegal search was not minimal, and the
illegally uncovered evidence was used to secure the warrant and the officers
testified falsely about the search. Thus, this Court should apply the rule in Madrid,
refuse to extend the independent source exception to the present case, and suppress
the evidence obtained in the search of the residence. “If we were to extend the
doctrine to the facts of this case, the warrant requirement would become the
warrant application requirement, thereby enabling police officers to take shortcuts

38

clearly prohibited by the Fourth Amendment. The warrant requirement must mean
something, and we cannot allow the exception to swallow the rule”. Madrid, 152
F.3d at 1041.

39

Point II
The court erred when it enhanced Petitioner’s sentence under USSG
§3B1.1(c) for a leadership role in the conspiracy to distribute heroin
based on Petitioner’s use of the single phrase “I am sending my wife”
about a delivery of heroin to a coconspirator. This single phrase does
not meet the government’s burden of proving by a preponderance of the
evidence that Petitioner “exercised control over, organized, or was
otherwise responsible for superintending the activities of” his common
law wife.
Argument
The United States Sentencing Guidelines prescribes a two-level,
enhancement where Petitioner “was an organizer, leader, manage, or supervisor in
any criminal activity” involving one to three participants. USSG §3B1.1(c). The
test for determining the application of the guideline is two part. A district court
must find (1) “the criminal activity involved at least two, but fewer than five,
complicit individuals (the Petitioner included); and (2) “in committing the offense
the defendant exercised control over, managed, organized, or superintendent the
activities of at least one other participant.” Id. The government bears the burden of
proving the role in the offense enhancement by a preponderance of the evidence.
United States v. Cruz, 120 F.3d 1, 3 (1st Cir. 1997) (en banc). In the present case,
the entirety of the government’s evidence consists of Petitioner twice uttering the
single sentence “I am sending my wife” in relation to his wife’s delivery of drugs
to Mejia-Ramos. This is insufficient to support the enhancement. Al-Rikabi, 606
F3d. at 15. (“There must be some additional fact or facts that will permit a fact40

finder to draw a founded inference about the nature of the particular relationship.”)
(emphasis added). Additionally, other record evidence supports a co-equal
domestic relationship. They were involved in an age-appropriate domestic
relationship, in fact, Ms. Cabral was two years older than Petitioner. Cruz, 120
F.3d at 4 (Defendant, who was 44 exercised dominion and control over his
pregnant 14-year-old girlfriend.). Both Petitioner and Cabral made deliveries of
heroin to the coconspirator, exercised similar control over the car used for the
deliveries. And the record contained no other evidence of Petitioner’s domination
over Cabral. There is no evidence that Petitioner paid Cabral, took a greater share
of the profits or directed Cabral’s activities. United States v. Picanso, 333 F.3d
21,24 (1st Cir. 2003) (case law makes pellucid that more than shared criminal
activity is needed to give rise to a managerial role adjustment). Thus, there is
insufficient evidence to support the enhancement. This error in incorrectly
imposing a two-point enhancement for leadership requires resentencing. MolinaMartinez v. United States, 136 S. Ct 1338, 1346 (2016) (“[w]hen a defendant is
sentenced under an incorrect guidelines range—whether or not the defendant's
ultimate sentence falls within the correct range—the error itself can, and most
often will, be sufficient to show a reasonable probability of a different outcome
absent the error.”).

41

At Sentencing the government argued Cabral “made her choice to be
involved” but that “her actions were clearly directed by Mr. Soto-Peguero”.
(Sentencing at 8) The government based this conclusion on the fact that Petitioner
was “the one deciding price, deciding quantity, deciding when to deliver it,
deciding how it would be delivered and saying he was going to send his woman to
make the deliveries to Mr. Mejia-Ramos, (Sentencing at 8). The fact that
Petitioner made the telephone calls relating to the delivery of the drugs perhaps
shows that Petitioner had an organizational and managerial role in the conspiracy.
It is not evidence that Petitioner managed, organized or supervised Ms. Cabral.
United States v. Jones, 523 F.3d 31, 43 (1st Cir. 2008) (“[I]t is not enough that the
defendant merely controlled, organized, or managed criminal activities [; he] must
instead control, organize, or manage criminal actors.”); see also Cruz, 120 F.3d at
3 (1st Cir. 1997) (noting that upward adjustment under 3B1.1(c) requires a finding
that “the defendant, in committing the offense, exercised control over, organized,
or was otherwise responsible for superintending the activities of, at least one of
those other persons”), U.S. v. Ofray-Campos, 534 F.3d 1, 40 (1st Cir. 2008) (“It is
not enough, however, that the defendant merely controlled, organized, or managed
criminal activities; rather he must control, organize or manage criminal actors),
United States v. Ramos-Paulino, 488 F.3d at 464 (1st Cir. 2008) ( we are
constrained by the unambiguous case law holding the management of criminal

42

activities, standing alone, does not constitute basis for a role-in-the-offense
enhancement). Thus, the only evidence the government offers to support the claim
that Petitioner managed Ms. Cabral is the single phrase, which Petitioner uttered
twice, “I am sending my wife”.
It is true that Petitioner twice said, “I am sending my wife”. (Govt’s Ex 2.5,
2.30). But it is also true that Petitioner twice said, “my wife is on her way”.
(Govt’s Ex. 2.8, 2.31) These two phrases impart the same information.
Nonetheless, the government wants to base a two-level enhancement on the fact
that in two instances, Petitioner chose the words “I am sending my wife” instead of
“my wife is on her way”. The difference in these two phrases will not bear the
weight the government chooses to assign it. In fact, the first time Petitioner says
“I am sending my wife” he is in the process of making a delivery himself and gets
lost attempting to follow the GPS directions and concludes he can’t follow the
direction and is therefore “sending the wife” who can follow directions. (Govt’s
Ex. 2.5). Both Petitioner and Cabral delivered heroin to Mejia-Ramos. Cabral
delivered the heroin four times and Petitioner delivered the heroin six times.
(Govt’s Ex 2.5, 2.14, 2.15, 2.16-17, 2.19, 2.24-27). There is nothing in the record
aside from this single phrase to suggest that Petitioner and Cabral were anything
other than equal participants in criminal activity. United States v. Picanso, 333

43

F.3d 21,24 (1st Cir. 2003) (case law makes pellucid that more than shared criminal
activity is needed to give rise to a managerial role adjustment).
It is true that in the past this Court has found a domestic relationship can be
evidence of a male organizing the activities of his female domestic partner. But in
that case the defendant was 44 years old and his ‘girlfriend’ was a pregnant 14year-old. Cruz, 120 F.3d at 4. This Court found the district court did not err in
imposing the enhancement but stated, “we recognize that whether Cruz might be
deemed an organizer or manager is a close question.” Nonetheless, the en banc
Court did not reverse the district court because, “the facts of record reasonably can
be interpreted to attribute managerial status, more likely than not, to [the
defendant]” Id. In the present case, Cabral is not 14 years old, she is 27 years old,
two years older than Petitioner. Petitioner and Cabral had an age-appropriate coequal relationship. In fact, during one recorded telephone conversation Petitioner
schedules the timing of a delivery of heroin around Cabral’s birthday celebration.
(Govt’s Ex. 2.15).
The PSI found that Petitioner directed Cabral to deliver drugs for him on at
least four occasions. (PSI at 17, para 46). There is evidence in the record that
Cabral delivered heroin on four occasions to the coconspirator Mejia-Ramos. But
there is no evidence in the record that Cabral delivered drugs for the Petitioner or
that Petitioner directed her to deliver the drugs aside from the two times that

44

Petitioner says, “I am sending my wife.”. There is no evidence Petitioner paid
Cabral, or that Petitioner took a larger share of the drug money. Al-Rikabi, 606
F.3d at 16 (where no record of profit margin or no record of division of proceeds,
no basis for inferring “relative compensation is an indicium of control”).
In imposing the enhancement, the district court found that “Defendant was
running the show”. The court based this finding on the fact that Petitioner told
Cabral to go to deliver the drugs and “she went out to buy a meal”. (Sentencing at
10). It seems the court was referring to the fact that Cabral was observed entering
the residence with bags of groceries. (SH Day One at 46-47).4 The fact that Cabral
grocery shopped or went out to buy a meal on one occasion is not probative of
Petitioner’s supervising Cabral in relation to the drug conspiracy.
“In the last analysis, the sparse record leaves too much to guesswork.” Id.
The evidence in the record shows Cabral and Petitioner were working together in
the drug conspiracy. However, in the absence of any probative evidence about the
nature of the “hierarchical relationship” between Petitioner and Cabral the finding
that Petitioner exercised control over another individual is clearly erroneous. Id. at
16. The evidence in the record was insufficient to support a potential increase of
over four years in Petitioner’s guideline sentencing range.

4

Moreover, the testimony concerning the grocery shopping was that both Defendant and
Cabral took groceries into the house. Therefore, it is unclear what the court is referring to
when the court states “she went out to buy a meal”. (SH Day One at 46-47).
45

The government will argue that Petitioner received the mandatory minimum
sentence and therefore the difference in his guideline sentencing range would not
affect his ultimate sentence. (Amended Judgment of Conviction,10/12/18, D.E. at
20, No. 272, Addendum at 28). However, it is pellucid that when sentencing
Petitioner to 262 months the district court aggregated all charges and determined a
total term of imprisonment. (Sentencing at 20). In fact, the original Judgment of
Conviction reflected an aggregate term of imprisonment of 262 months. (Judgment
of Conviction, 9/12/18, at 2, Addendum at 22). United States v. Hudson, 823 F.3d
11, 19 (1st Cir.2016) (a calculation error that artificially increases the GSR is
unlikely to be harmless error). Therefore, the erroneous guideline sentencing range
affected Petitioner’s sentence.
In the present case, the government, who bears the burden of proving
knowing distribution by a preponderance of the evidence, failed to meet that
burden. The district court had insufficient evidence to impose the enhancement
under USSG §3B1.1(c) and therefore Petitioner’s sentence should be vacated, and
the case remanded for resentencing without the enhancement under. MolinaMartinez, 136 S. Ct at 1346.

46

CONCLUSION
For the above reasons, this Court should grant the Petition for a Writ of
Certiorari.
Dated at Portland, Maine this 22nd day of December 2020.
___/s/Jane E. Lee____
Attorney for Petitioner
Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101

47

APPENDIX

48

